Ti

sea  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefe contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-739

JULIUS BARBOUR, et al.,
Petitioners,
v.
HALLIBURTON COMPANY, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION OF
RESPONDENTS HALLIBURTON COMPANY AND HALLIBURTON ENERGY SERVICES,
INC. in the above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4093 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

per ree | Kone. 0. Loos Onda bh Cle

My Comm. Exp. September ยง, 2023, be. :
Notary Public Affiant

 

 

39590
